Supreme Court, U.S.
FILED
■\\
i.-i
'

'■>

S9M

em

I/
j.:

No. 2'0-

m 2 6 2020
office

SUPREME COURT OF THE UNITED STATES
Cherrie Hollie,
Petitioner
vs.
Robert Wilkie, Secretary of Veterans Affairs,
Respondent.
PETITION FOR A WRIT OF CERTIORARI

>•

s'

■ r: /

\

F-.

\I

E

Cherrie Hollie
3675-391*1 Ave., Apt. 5
Oakland, CA. 94619
Telephone: (510) 482-5810
Petitioner in Pro Per

Petition for a Writ of Certiorari

OF THE CLERK

TABLE OF CONTENTS

m

\

:

Table of Contents.................................................
i
Table of Authorities.............................................
ii
I.
Questions Presented.............................................
1
II.
Petition for Writ of Certiorari............................
1
III.
Opinions Below.....................................................
.2
IV.
Jurisdiction.......................................................... .
,2
V.
Constitutional Provisions Involved....................
.2
VI.
Statement of the Cash..........................................
2-4
VII. REASONS FOR GRANTING THE WRIT
4-13
A. This Court Should Grant the Writ of Certiorari Because
The Federal Circuit Erred in Dismissing Petitioner’s
Appeal. The Federal Circuit Had A Duty to Issue A
Ruling on the Merits......................................................................... ,4-7
B. While Petitioner Did Not Specifically Argue
Constitutional Issues to the Federal Circuit, Her 5th and
14th Amendment Due Process of Law and Equal Protection
of the Laws Arguments Are Obvious and These
Constitutional Issues Should Have Been Considered by the
Court On Its Own Motion............................................................. 7
C. The Federal Court’s Dismissal of Petitioner’s Equitable
Claims Was Erroneous................................................................... 8-9
D. The Federal Circuit Failed to Consider Certain Evidence
That Was in The Record................................................................... 9-10
E. The Federal Circuit Erred in Not Addressing the Denial
of Oral Argument to Petitioner at the U.S. Court of Appeals
for Veterans Claims and in Denying Oral Argument to
Petitioner.........................................................................
10
F. The Federal Circuit Erred in Not Considering
Petitioner’s Equitable Arguments, Including Her General
Equitable Arguments and The Benefit of the Doubt
Doctrine..................................................
10-13
VIII.
CONCLUSION.......................................
13
IX.
CERTIFICATE OF COMPLIANCE
14
X.

APPENDIX

15 et seq.
-i-

Petition for a Writ of Certiorari

Table of Authorities
Cases
Brown v. Gardner, 513 U.S. 115,117, 115 S. Ct. 552,130 L. Ed. 2d 4
62 (1994)..........................................................................................................

12

Harris v. Shinseki, 704 F. 3d 9465 (Fed. Cir. 2013)

11

Haynes v. McDonald, 785 F. 3d 614, 616 (Fed. Cir. 2015)

6

Hodge v. West, 155 F. 3d 156 (Fed. Cir. 1998)

11

Kelly v. Nicholson, 464 F. 3d 1349 1354 (Fed. Cir. 2006)

11

Kloeckner v. Solis (2012)

9999119199999919919999119111991191191111919

4

Sayers v. Department of Veterans Affairs, 19-2195 (Fed. Cir. 2020)

4

Shinseki v. Sanders, 556 U.S. 396,129 S .Ct. 1696 (2009).....................

11-12

Statutes
38 U.S.C. Section 5103A,

11

38 U.S.C. Section 5107 (b)

11
Rules of Court

U.S. Court of Appeals for Veterans Claims Rules of Court Rule 34

10

Regulations
38 C.F.R. 3.50 (b)

1,7

38 C.F.R. 3.50 (b) (1)

7

38 C.F.R. 3.54

3,4,5,6
Constitutional Provisions

United Sates Constitution, Amendment V.
United States Constitution, Amendment XIV,

-11Petition for a Writ of Certiorari

2
2

I
QUESTIONS PRESENTED
A. Did the Federal Circuit err in dismissing Petitioner’s appeal from the U.S. Court of
Appeals for Veterans Affairs for lack ofjurisdiction?
B Did the Federal Circuit err in failing to make a finding as to whether Petitioner is
legally the surviving spouse of the late veteran, Charlie P. Hollie, as defined by 38 C.F.R. 3.50
(b)?
C. Did the Federal Circuit err in failing to make a finding that Petitioner meets the
requirement of 38 C.F.R. 3.54 with respect to her entitlement to a Department of Veterans
Affairs survivor’s pension?
D. Did the Federal Circuit commit error by its failure to consider some evidence
presented by Petitioner relevant to the appeal and included in the record?
E. In failing to determine that Petitioner was eligible for a veterans’ survivor’s
pension, was Petitioner unconstitutionally denied equal protection of the laws as guaranteed by
the 5th and 14th Amendments to the U.S. Constitution?
F. Did the Federal Circuit commit error by its failure to consider Petitioner’s
equitable arguments?
G. Did the United States Court of Appeals for the Federal Circuit err in failing to
rule on the denial to Petitioner of oral argument by the U.S. Court of Appeals for Veterans
Claims?
II
PETITION FOR WRIT OF CERTIORARI
Cherrie Hollie, Petitioner in Pro Per, respectfully petitions this court for a writ of
of certiorari to review the judgment of the U.S. Court of Appeals for the Federal Circuit.
//

-1Petition for a Writ of Certiorari

Ill
OPINIONS BELOW
The decision by the U.S. Court of Appeals for Veterans Affairs of November 27,
2019 is attached in the Appendix. The decision of June 3, 2020 of the United States Court of
Appeals for the Federal Circuit dismissing Petitioner’s appeal is attached in the Appendix.
IV
JURISDICTION
The decision of the U.S. Court of Appeals for the Federal Circuit dismissing
Ms. Hollie’s appeal was decided on June 3, 2020. Petitioner invokes this Court’s jurisdiction
under 28 U.S.C. Section 1257, having timely filed this petition for a writ of certiorari within
ninety days of the judgment of the U.S. Court of Appeals for the Federal Circuit.
V
CONSTITUTIONAL PROVISIONS INVOLVED
United States Constitution, Amendment V:
No person shall be held to answer for a capital, or otherwise infamous crime, unless
on a presentment or indictment of a Grand Jury, except in cases arising in the land or naval
forces, or in the Militia, when in actual service in time of War or public danger; nor shall any
person be subject for the same offense to be put twice in jeopardy of life or limb; nor shall be
compelled in any criminal case to be a witness against himself, nor be deprived of life, liberty,
or property, without due process of law; nor shall private property be taken for public use,
without just compensation.
United States Constitution, Amendment XIV, Section 1:
All persons bom or naturalized in the United States, and subject to the jurisdiction
thereof, are citizens of the United States, and of the State wherein they reside. No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens of the
United States, nor shall any State deprive any person of life, liberty, or property, without due
process of law, nor deny to any person within its jurisdiction the equal protection of the laws.
VI
STATEMENT OF THE CASE
On November 27, 2019, the U.S. Court of Appeals for Veterans Claims
-2Petition for a Writ of Certiorari

affirmed a December 27, 2018 Board of Veterans Appeals decision denying Petitioner a
survivor’s pension On June 3, 2020, the U.S. Court of Appeals for the Federal Circuit dismissed
Petitioner’s appeal, stating that she had a sympathetic case, but claiming that the court did not
have jurisdiction as Petitioner allegedly did not raise constitutional issues. As can be seen
herein, Petitioner effectively raised the issue of equal protection of the laws as guaranteed by
the 5th and 14th Amendments to the U.S. Constitution.
While the U.S. Court of Appeals for Veterans Claims found that Petitioner did not qualify
as a surviving spouse for purposes of entitlement to a survivor’s pension, Petitioner has strong
arguments that she is veteran Charlie Hollie’s surviving spouse as defined by 3 C.F.R. Section
3.50..
This case involves the interpretation of 38 C.F.R. Section 3.54 and interpretation of the
benefit of the doubt rule and of general equitable principles, The case also involves the issue of
equal protection of the laws as guaranteed by the 5th Amendment to the U.S. Constitution and by
the 14th Amendment to the U.S. Constitution.
It is undisputed that Appellant was married to the veteran, the late Charlie Hollie, who
died in March 2009. Mr. Hollie died of chronic renal failure, as is evidenced in his death
certificate. He was also granted an improved veteran’s pension in December 2008 because of
his renal failure. It should be noted that Mr. Hollie was a veteran who served in the
U.S. Marine Corps from 1960 to 1964 and in the U.S. Navy from 1964 to 1968 and was
honorably discharged from the U.S. Marine Corps in June 1964 and was honorably discharged
from the U.S. Navy in August 1968. Appellant and the late Charlie Hollie were married on or
about July 18, 1970 (see RBA960). It is also undisputed that Appellant gave birth to a son,
Jermaine Hollie, during the marriage. Jermaine Hollie was bom on April 11, 1971. His birth
was a full-term birth.
-3Petition for a Writ of Certiorari

While the parties were divorced in 1976 because of an extreme level of domestic violence
by the veteran to Appellant at a time before the passage of significant legislation protecting
women from domestic violence (including., but not limited to, the Violence Against Women Act,
which was signed by President Bill Clinton in September 1994), it is an undisputed fact that the
veteran, Charlie Hollie, never married after the divorce and that Appellant was not married at the
time of the veteran’s death. It should be noted that among the violent incidents that forced
Appellant to file a Petition for Dissolution of Marriage was an incident in which the veteran,
Charlie Hollie, was fighting with Petitioner against a cement wall. In said fight, the Petitioner
sustained a head injury, causing her excruciating pain and injuries which in fact caused her to go
blank. See the V9, which is part of the record at RBA73-75 and RBA 82-83.
Given the circumstances, Appellant, who was married to the veteran for over a year
and gave birth to his son during the marriage, contends that she should be deemed his surviving
spouse for purposes of the granting to her of a survivor’s pension and states that both legal and
equitable grounds support her claim.
VII
REASONS FOR GRANTING THE WRIT
A. This Court Should Grant the Writ of Certiorari Because the Federal Circuit
Erred in Dismissing Petitioner’s Appeal. The Federal Circuit Had A Duty to
Issue A Ruling on the Merits.
Rather than dismiss Petitioner’s appeal from the U.S. Court of Appeals for Veterans
Claims, the Federal Circuit had a duty to decide Petitioner’s case on the merits. See Kloeckner
v. Solis (2012), 568 U.S. 54 land Savers v. Department of Veterans Affairs. 19-2195 Fed.
Cir. 2020). Petitioner had numerous meritorious arguments in support of her position, including
the language of Code of Federal Regulations 3.54, which reads in relevant part as follows:.
A surviving spouse may qualify for pension, compensation, or dependency and indemnity
-4Petition for a Writ of Certiorari

compensation if the marriage to the veteran occurred before or during his or her service or, if
married to him or her after his or her separation from service, before the applicable date stated in
this section.
(a) Pension. Death pension may be paid to a surviving spouse who was married to the
veteran
(1) One year or more prior to the veteran’s death, or
(2) During any period of time if a child was bom of the marriage, or was bom to them before
the marriage, or
(3) Prior to the applicable delimiting dates, as follows:
(v) World War II—January 1,1967.
(vi) Korean conflict—February 1,1965.
(vii) Vietnam era—March 8, 1985, and
(viii) Persian Gulf War—January 1, 2001.
(b) Compensation. Death compensation may be paid to a surviving spouse who, with
respect to date of marriage, could have qualified as a surviving spouse for death
compensation under any law administered by the Department of Veterans Affairs in
effect on December 31,1957, or who was married to the veteran:
(1) Before the expiration of 15 years after termination of the period of service in which
the injury or disease which caused the aggravated injury or disease which caused the
veteran’s death was incurred or aggravated, or
(2) One year or more, or
(3) For any period of time, if a child was bom of the marriage, or was bom to them
before the marriage.
(c) Dependency and indemnity compensation. Dependency and indemnity compensation
payable under 38 U.S.C. Section 1310 (a) may be paid to the surviving spouse of a
veteran on or after January 1,1957, who was married to the veteran:
(1) Before the expiration of 15 years after the termination of the period of service in
which the injury or disease causing the death of the veteran was incurred o
(2) For one year or more; or
(3) For any period of time if a child was bom of the marriage.
In this case, Appellant married the veteran, Charlie Frank Hollie, in July 1970.
Appellant gave birth to her and Mr. Hollie’s son, Jermaine Hollie, on April 11, 1971. Jermaine
Hollie’s birth certificate is found at RBA76. The parties were divorced (because of severe
domestic violence suffered by Appellant that was perpetrated on her by the veteran. As a result,
Petitioner has Post Traumatic Stress Disorder (See RBA 124) It should be noted that in her
-5Petition for a Writ of Certiorari

Social Security Statement dated November 29, 2017 at RBA17, it is stated that Appellant’s
marriage to Charlie Frank Hollie ended in Mr. Hollie’s death. In a letter dated April 25, 2018
(See RBA49), A. Weber, M.D. states that Appellant is being treated at the Schuman-Liles Clinic
in Oakland, CA. for Post-Traumatic Stress Disorder (PTSD), from her abusive marital
relationship with Charlie Hollie, which caused her mental and emotional abuse with violent
physical attacks and even stalking. Appellant still suffers anguish and significant pain from the
trauma that was inflicted on her during the marriage. As a result, Petitioner was given an
expedited hearing before the Board of Veterans Appeals pursuant to 38 U.S. Section 7107. See
RBA50.
Appellant and the veteran clearly were married for over a year and they had a child who
was bom during the marriage, clearly qualifying her for a survivor’s pension according to 38
C.F.R. 3.54.
Given these facts, it is clear that the decision of The Honorable Margaret Bartley
of the U.S. Court of Appeals for Veterans Claims denying Appellant a survivor’s pension is
erroneous. The facts and the law make clear that Appellant Cherrie Hollie is eligible for a VA
survivor’s pension and should be awarded a survivor’s pension.
It should be noted that in P. 8 towards the end of the first full paragraph of Respondent’s
Informal Brief at the Federal Circuit, it is stated that “However, there is no dispute that Ms.
Hollie divorced Mr. Hollie to escape abuse”.
This court should note that while the court in Haynes v. McDonald, 785 F. 3d 614,
616 (Fed. Cir. 2015), held that the appellant in that case, who had divorced her veteran spouse
four years before he died, was not entitled to the requested benefits, it should be noted that said
case did not involve a survivor’s pension. Nor is it clear from the court’s ruling whether there
was a child of the marriage. The present case is distinguishable in light of the severity of the
-6Petition for a Writ of Certiorari

domestic violence, the lack of legal protections for battered women at the time of the dissolution
of Appellant’s marriage to the veteran and because there was a child bom of the marriage.
Moreover, neither the late Charlie Hollie (sometimes referred to as Charles Hollie although
Charlie Hollie was his birth name) nor Appellant were married at the time of Mr. Hollie’s death.
As the Department of Veterans Affairs admits in its Respondent’s Brief at the Federal
Circuit in the last full paragraph on P. 9, 38 C.F.R. Section 3.50 (b) (1), states that continuous
cohabitation with the deceased veteran is required “except where there was a separation which
was due to the misconduct of, or procured by, the veteran without the fault of the spouse”. This
court should find that 38 C.F.R. Section 3.50 is broad enough to apply to the circumstances
requiring Appellant to obtain a dissolution of her marriage to the veteran.
B. While Petitioner Did Not Specifically Argue Constitutional Issues to the Federal
Circuit, Her 5th and 14th Amendment Due Process of Law and Equal Protection of
the Laws Arguments Are Obvious and These Constitutional Issues Should Have
Been Considered by the Court On Its Own Motion.
As discussed in Section V of this brief, the 5 th and 14th Amendments to the U.S.
Constitution guarantee Petitioner due process of law and equal protection of the laws. If some
surviving spouses of veterans who have had a child with the veteran during their marriage to the
veteran are legally entitled to a VA pension and others are not so entitled, those who are not so
entitled are being denied equal protection of the laws and due process of law. In this case, the
facts establish that Petitioner was married to the veteran, Charlie Hollie, for over a year, and
gave birth to their son, Jermaine Hollie, during the marriage. At the time of veteran Charlie
Hollie’s death, neither Charlie Hollie nor Petitioner were married. Given these facts, Petitioner
requests that this court give her the opportunity to argue in this court why she is entitled to a
Department of Veterans Affairs (VA) survivor’s pension.
//

-7-

Petition for a Writ of Certiorari

C. The Federal Circuit’s Denial of Petitioner’s Equitable Claims Was Erroneous
The Federal Circuit did not fairly or adequately consider Petitioner’s equitable claim
*

to a survivor’s pension.
As was mentioned in Appellant’s Informal Opening Brief in the U.S. Court of Appeals
for Veterans Affairs, on P. 15 of the transcript (RBA33) from the hearing of September 26, 2018
before The Honorable Thomas Knope, Barry D.6Ammon, Esq., who was at the hearing on behalf
of Appellant, stated that it is a matter ofjustice and fairness that Appellant to be awarded a VA

t

*

survivor’s pension. Specifically, at the top of P. 16 (RBA34), Mr. Ammon argues that “Ms.
Hollie was married to the veteran. She remained-even though they were divorced n in regular
contact with him throughout his life and especially in the last five of his life when he needed
medical help and for many years before that”.

»•

Mr. Ammon then stated on the record at P. 16 (RBA34), the following:
They did have a child during the marriage. They were married at least a year. He did
serve in Vietnam. He was discharged—entered the military in ’64, discharged in ’68, clearly in
X

\

the Vietnam era. Clearly under all three of these criteria the requirement is met and we—Ms.
Hollie submits that at least in equity she should be granted the pension.
Judge Knope then stated Okay.
Mr. Ammon then states the following on the record:
There certainly is financial hardship as we’ve pointed out, also. And of course, even a
modest VA pension would be helpful to her.
Judge Knope then states Okay.
Mr. Ammon then states:
—stressful marriage with Charlie Hollie (Ms. Hollie’s and the late Charlie Hollie’s
marriage certificate is included in the record at RBA960 and the Final Judgment of Dissolution
-8Petition for a Writ of Certiorari

of Marriage with Charles Hollie is attached to the record at RBA343). She really and if anyone
is deserving Ms. Hollie certainly is.

to
to

1

Ms. Hollie then states on the record on P. 16 (RBA34):
If it hadn’t been for the extreme (meaning extreme (domestic violence)) I could have stayed and
just fought him back. Just stayed and just hang with it but it was like my head hit the cement
and (inaudible).
Judge Knope then states (At P. 17, RBA35): Right.
Ms. Hollie then states at P. 17, RBA35:1 just—oh—Ijust—

\

Judge Knope then states:
Well, I want to thank you very much for coming in, ma’am. I have your—I understand

P
f

what you’re arguing and I know that you’ve submitted a number—a great deal of testimony
about your—when you were married so I do want to thank you very much for coming in for that
I also—that’s all I really have and if there’s nothing else I think we can close the hearing at this
time.
It is clear that the argument summarized above states a strong case for the application
of equity in this matter, which would result in the granting to Petitioner a VA survivor’s pension.
Given that the Federal Circuit, while stating in its opinion, that Petitioner’s case is sympathetic,
did not consider her equitable arguments, this Court should grant this petition to allow said issue
to be more fully briefed.
D. The Federal Circuit Failed to Consider Certain Evidence That Was in The
Record.
Petitioner requested that the Federal Circuit consider certain evidence. A court,
including an appellate court, should consider all relevant evidence. In fact, said evidence was
not considered by the Federal Circuit. It is an axiom that a court, including an appellate court,
-9-

Petition for a Writ of Certiorari

should consider all relevant evidence. Given the fact that the Federal Circuit did not consider all
relevant evidence, this Petition should be granted to allow said issue to be more fully briefed.
E. The Federal Circuit Erred in Not Addressing the Denial of Oral Argument to
Petitioner at the U.S. Court of Appeals for Veterans Claims and in Denying Oral
Argument to Petitioner.
Pursuant to Rules of Court Rule 34, Petitioner requested oral argument at the U.S.
Court of Appeals for Veterans Claims. It is axiomatic that actually having the appellant in the
courtroom or, in certain circumstances, virtually, allows the court and the appellant to have
\

to answer each other’s questions in a far more personal and accurate manner than when an
appellate court decides a case solely on the briefs and record. Yet said court did not allow
Petitioner oral argument. Nor did the Federal Circuit specifically find that the denial of oral
argument to Petitioner was erroneous.
F. The Federal Circuit Erred in Not Considering Petitioner’s Equitable
Arguments, Including Her General Equitable Arguments and The Benefit of the Doubt
Doctrine
Petitioner made strong equitable arguments to the Federal Circuit. As she had argued
to the U.S. Court of Appeals for Veterans Affairs and as has been previously stated herein,
Petitioner was married to the veteran for over one year and gave birth to the veteran’s son and
her son, Jermaine Hollie, during the marriage. While Petitioner had no choice but to divorce the
veteran because of the severe domestic violence that she had suffered in an era (the early
1970’s), when there was little legal protection for abused women, she was not married at the time
of the death of the veteran, Charlie Frank Hollie. Nor was the veteran married at the time of his
death. Additionally, Petitioner had assisted the veteran significantly with his health care in the
last 5 years of his life. It is clear that but for the severe domestic violence that Petitioner suffered
when she was married to the veteran, she would have been married to him at the time of
-10-

Petition for a Writ of Certiorari

his death.
Even the U.S. Court of Appeals for Veterans Affairs and the Federal Circuit have stated
in their decisions that Petitioner’s equitable case is strong.
It should be n toed that the statutorily-mandated benefit-of-the -doubt rule assists the
VA in deciding a veteran’s or a veteran’s survivor’s claims on the merits after the claim has been
fully developed by the V A which would include the obtaining of VA medical examinations and
opinions. See Harris v. Shinseki, 704 F. 3d 946 (Fed. Cir. 2013). The VA differs from every
other federal benefits agency in being statutorily obliged to help the veteran develop his or
her claim (see 38 U.S.C. Section 5103 A and other statutes), and a number of other provisions
and practices of the VA’s administrative process reflects a congressional policy to favor the
veteran, see, among other statutes, 38 U.S.C. Section 5107 (b). It is clear that it is Congress’
decision to place a thumb on the scale in the veteran’s favor or the veteran’s survivor’s favor in
the course of VA decisionmaking.
The “benefit of the doubt statute, 28 U.S.C. Section 5107 (b), and the analogous
“reasonable doubt” regulation, 38 C.F.R. Section 3.102, apply to all material issues relating to a
claim, including the competency as well as the credentials of a VA examiner. See Kelly v.
Nicholson, 463 F. 3d 1349,1'354 (Fed. Cir. 2006), which states that 38 U.S.C. Section 5107 (b)
“applies not only to decisions relating to the overall merits of a claim, but by its plain language it
applies to all decisions determining any material issue relating to claim”.
In Hodge v. West, 155 F. 3d 1356 (Fed. Cir. 1998), the Federal Circuit observed:
... .in the context of veterans’ benefits, where the system of
awarding compensation is so uniquely pro-claimant, the
importance of systemic fairness and the appearance of
fairness carries great weight. (See 155 F. 3d 1356,1 1363).
This court should note that in Shinseki v. Sanders, 556 U.S. 396.120 S. Ct. 1696
-11Petition for a Writ of Certiorari

(2009), the U.S. Supreme Court noted that Congress has made clear that the YA is not an
ordinary agency. See Sanders, 129 S. Ct. 1696,1707. In said ruling, Justice Souter stated that
the VA differs from virtually every other agency in being itself obliged to help the claimant
develop his claim, see, e.g., 38 U.S.C. Section 5103 A, and a number of other provisions and
practices of the VA’s administrative and judicial review process reflect a congressional policy to
favor the veteran, see, e.g., Section 5107 (b), which states that (“The Secretary shall give the
benefit of the doubt to the claimant” whenever “there is an approximate balance of positive and
negative evidence regarding any issue material to the determination of a matter”. Justice Souter
further stated that “even if there a question in my mind, I would come out the same way under
the longstanding “rule that interpretive doubt is to be resolved in the veteran’s favor.” Brown v.
Gardner, 513 U.S. 115,117.115 S. Ct. 552.130 L. Ed 2d 462 (1994).
It is clear that under Brown v. Gardner, supra., the benefit of the doubt rule should have
been applied to this matter but was not in fact applied.
There can be little doubt that in this case, equitable principles strongly favor Petitioner
Cherrie Hollie. It is important to reiterate that she was married to the veteran, Charlie
Hollie, for over 5 years. She gave birth during the marriage to she and the veteran’s son,
Jermaine Hollie. She only left the marriage because of severe and documented domestic
violence, which included a severe blow to the head. Moreover, Ms. Hollie is not currently
married and lives by herself and has not been married for over 40 years.
A correct application of equitable principles, including, but not limited to the benefit
of the doubt rule, would dictate that Appellant Cherrie Hollie be granted a survivor’s pension .
and that she should be granted pension benefits from the date of her application for pension
benefits in February 2015. If the court deems it proper, Appellant requests that her survivor’s
-12Petition for a Writ of Certiorari

benefits be awarded from April 2009 (the veteran, Charlie Hollie, died in March 2009) to the
present.
Ill
CONCLUSION
For the foregoing reasons, Petitioner Cherrie Hollie respectfully requests that this Court
Issue a writ of certiorari to review the judgment of the U.S. Court of Appeals for the Federal
Circuit.
DATED: August 25, 2020

CHERRIE A. HOLLIE
Petitioner in Pro Per
3675-39*11 Ave., Apt. 5
Oakland, CA. 94619
Telephone: (510) 482-5810

tt»
fit

-13-

Petition for a Writ of Certiorari

t

